App. 183
APPENDIX Q
UNITED STATES COURT OF APPEALS
For the Second Circuit

August Term, 2004
(Petition for Rehearing: March 2, 2005
Decided: June 29, 2005)
Docket No. 04-0196-cv

Robert L. Schulz,
Plaintiff-Appellant,
—v.—
Internal Revenue Service
and Anthony Roundtree,
Defendants-Appellees.

Before:
Feinberg, Straub, and Raggi, Circuit Judges.
(Filed Jun. 29, 2005)
The government has moved to amend a prior per
curiam opinion, reported at Schulz v. I.R.S., 395 F.3d
463 (2d Cir. 2005), affirming the judgment of the
United States District Court for the Northern District
of New York (David N. Hurd, Judge), dismissing for
lack of subject matter jurisdiction appellant’s motions

App. 184
to quash administrative summonses served on him by
the Internal Revenue Service. The motion is construed
as a petition for rehearing and is granted to the extent
necessary to clarify the prior panel decision. The prior
opinion remains in force to the extent it is not incon­
sistent with this opinion.
In its motion the government argues that the prior
per curiam opinion misconstrues the grounds for de­
nial of jurisdiction over motions to quash IRS sum­
monses and otherwise misunderstands the roles of 26
U.S.C. §§ 7210 and 7604 in the comprehensive statu­
tory tax-enforcement scheme. In particular, the gov­
ernment claims that a taxpayer may be subjected to
criminal prosecution under 26 U.S.C. § 7210 or con­
tempt sanction under 26 U.S.C. § 7604(b) for disobedi­
ence of an IRS summons whether or not the summons
is enforced by a federal court order and, if an order of
enforcement is granted, regardless of the taxpayer’s
compliance with that order. The prior per curiam opin­
ion rejected this view as contrary to due process. That
holding is confirmed on rehearing. Consistent with the
demands of constitutional due process, an indictment
under 26 U.S.C. § 7210 shall not lie and contempt
sanctions under 26 U.S.C. § 7604(b) shall not be levied
based on disobedience of an IRS summons until that
summons has been enforced by a federal court order
and the summoned party, after having been given a
reasonable opportunity to comply with the court’s
order, has refused. This holding does not prejudice
the privilege of a court in which the government has
sought enforcement of an IRS summons to issue,

App. 185
consistent with the law of contempt, an order of attach­
ment to ensure the presence of a party who has contumaciously refused to comply with a summons. The
motion to extend time in which to file a petition for re­
hearing en banc is granted.

Robert L. Schulz, pro se, Queensbury, N.Y.
Frank P. Cihlar, Assistant United States Attorney,
Tax Division, United States Department of Justice,
Washington, D.C., for Defendants-Appellees.

Straub, Circuit Judge:
The government has moved to amend our per cu­
riam opinion, reported at Schulz v. I.R.S., 395 F.3d 463
(2d Cir. 2005) (“Schulz /”). In support of its motion, the
government relies on arguments that it did not ad­
vance in the District Court or on the original appeal.
In light of these new arguments, and because the
proposed amendments, if accepted, would alter sig­
nificantly our prior holding, we, at the government’s
suggestion, construe the motion to amend as a petition
for panel rehearing. Having considered the arguments
of the parties, we grant the petition to rehear for only
the limited purpose and to the extent necessary to clar­
ify our prior opinion and hold that: 1) absent an effort
to seek enforcement through a federal court, IRS sum­
monses “to appear, to testify, or to produce books, pa­
pers, records, or other data,” 26 U.S.C. § 7604, issued
“under the internal revenue laws,” id., apply no force

App. 186
to the target, and no punitive consequences can befall
a summoned party who refuses, ignores, or otherwise
does not comply with an IRS summons until that sum­
mons is backed by a federal court order;1 2) if the IRS
seeks enforcement of a summons through the federal
courts, those subject to the proposed order must be
given a reasonable opportunity to contest the govern­
ment’s request; 3) if a federal court grants a govern­
ment request for an order of enforcement then any
individual subject to that order must be given a rea­
sonable opportunity to comply and cannot be held in
contempt or subjected to indictment under 26 U.S.C.
§7210 for refusing to comply with the original, unen­
forced IRS summons, no matter the taxpayer’s reasons

1 In our prior per curiam opinion we held that “no conse­
quence whatever can befall a taxpayer who refuses, ignores, or
otherwise does not comply with an IRS summons until that sum­
mons is backed by a federal court order.” 395 F.3d at 465. Con­
trary to the government’s view that § 7604(b) allows a court to
“punish disobedience of an IRS summons” without providing an
intervening opportunity to comply with a court order of enforce­
ment, we maintain that “no punitive consequences can befall a
summoned party who refuses, ignores, or otherwise does not com­
ply with an IRS summons until that summons is backed by a fed­
eral court order,” but we recognize that 26 U.S.C. § 7604(b) allows
courts to issue attachments, consistent with the law of contempt,
to ensure attendance at an enforcement hearing “[i]f the taxpayer
has contumaciously refused to comply with the administrative
summons and the Service fears he may flee the jurisdiction.”
United States v. Powell, 379 U.S. 48, 58 n.18 (1964). While such
an attachment is not, consistent with due process and the law of
contempts, “punitive,” it is nonetheless a consequence.

App. 187
or lack of reasons for so refusing.2 Our prior opinion
otherwise remains in effect to the extent that it is not
inconsistent with this opinion. We grant the motion to
extend time in which to file a petition for rehearing en
banc.
BACKGROUND
The facts underlying the original appeal are set
forth in our prior opinion, Schulz 1,395 F.3d at 464. For
purposes of completeness and clarity, however, we re­
peat that work here.
The IRS served Schulz with a series of summonses
in May and June of 2003, ordering Schulz to appear
and provide testimony and documents in connection
with an investigation of Schulz by that agency. Rather
than comply with the summonses, Schulz filed a mo­
tion to quash in the United States District Court for
the Northern District of New York. That motion was
heard by Magistrate Judge David R. Homer and, on
October 16, 2003, was dismissed for lack of subject
matter jurisdiction. In his unpublished opinion the
Magistrate Judge found that, because the IRS had not
commenced a proceeding to enforce the summonses,
no case or controversy existed, and if the IRS did at­
tempt to compel compliance, the enforcement proce­
dure described in § 7604 would provide Schulz with

2 Our conclusions here and in Schulz I are consistent with
dicta in our recent decision in Hudson Valley Black Press v. IRS,
No. 04-1949, 2005 WL 1253410, at *4 (2d Cir. May 27, 2005).

App. 188
adequate opportunity to attack the summonses on
their merits.
Schulz filed in the District Court an appeal from
and objection to the Magistrate Judge’s order. The Dis­
trict Court (David N. Hurd, Judge) denied those objec­
tions and dismissed the appeal on December 3, 2003,
by an unpublished order. Schulz appealed to this
Court. By our January 25, 2005, per curiam opinion,
we affirmed. See Schulz I, 395 F.3d 463. The focus of
that opinion was whether issuance of an IRS summons
presents a case or controversy under Article Ill of the
United States Constitution. Id. at 464. Relying on the
Supreme Court’s decisions in Reisman v. Caplin, 375
U.S. 440 (1964), and United States v. Bisceglia, 420 U.S.
141 (1975), and in view of our decisions in Application
of Colton, 291 F.2d 487 (2d Cir. 1961), and United
States v. Kulukundis, 329 F.2d 197 (2d Cir. 1964), we
held that a taxpayer’s motion to quash an IRS sum­
mons, in the absence of an effort by the agency to seek
enforcement of that summons in a federal court, does
not present an Article III case or controversy. Schulz I,
395 F.3d at 465. Because that holding entailed overrul­
ing, in part, our prior holding in Colton, we circulated
Schulz I to all active members of the Court prior to fil­
ing. Id. at n.l.
After Schulz I was issued, the government filed
the present “motion to amend or, in the alternative, to
extend time to file a petition for rehearing en banc,”
which the government also invites us to view as a pe­
tition for panel rehearing. The government’s principal
concerns are that we misunderstand the nature of the

App. 189
jurisdictional bar on motions to quash IRS summonses
and “misapprehend!] the consequences that ensue
from the issuance of an IRS administrative summons.”
As to the latter point, the government appears to argue
alternatively, or in combination, that: 1) the govern­
ment may use the federal courts to punish taxpayers
who disobey an IRS summons even if the summons is
never enforced by a court order; 2) if an IRS summons
is enforced by a court order, the court may punish dis­
obedience of the IRS summons before providing the
taxpayer an opportunity to comply with the court’s
order; or 3) if an IRS summons is enforced by a court
order, the court may punish disobedience of the IRS
summons even if the taxpayer complies with the
court’s order. In our view, expressed in Schulz I, none
of these proposals is consistent with the compre­
hensive tax-enforcement scheme in which 26 U.S.C.
§§ 7210, 7604(a), and 7604(b) are situated, constitu­
tional due process, or the relevant precedents of this
Court and the United States Supreme Court. There­
fore, while we grant the petition for panel rehearing,
we do so to clarify rather than to amend substantially
Schulz I, which remains in force to the extent it is not
inconsistent with this opinion.
DISCUSSION
Because it was the focus of the parties, our discus­
sion in Schulz I focused primarily on the doctrinal
rules of jurisdiction that the Supreme Court has de­
rived from the “Cases” and “Controversies” clauses of
the United States Constitution, Article III, Section 2.

App. 190
See Reisman, 375 U.S. at 443 (dismissing petition to
quash “for want of equity”). Underlying our analysis
there was the equally venerable line of Supreme Court
doctrine limiting the protections afforded to adminis­
trative action by sovereign immunity based on the due
process clauses of the Fifth and Fourteenth Amend­
ments to the United States Constitution. The “leading
cases on this question are Ex parte Young, 209 U.S. 123
(1908), and Oklahoma Operating Co. v. Love, 252 U.S.
331 (1920).” Reisman, 375 U.S. at 446. In particular,
our decision in Schulz I was informed by concerns, also
stated in Colton, 291 F.2d at 489-90, and Kulukundis,
329 F.2d at 199, “that the penalties of contempt [or
prosecution] risked by a refusal to comply with the
summonses are so severe that the statutory procedure
amounts to a denial of judicial review.” Reisman, 375
U.S. at 446.
On its present motion, the government presses the
claim that Congress has, in the statutory scheme that
includes 26 U.S.C. §§ 7210 and 7604, exercised its right
to immunize agents of the IRS from suits seeking pro­
spective relief from the enforcement of administrative
summonses. That this is so was settled in Reisman.
However, the privilege of that immunity comes with
certain costs demanded by due process. Our holding in
Schulz I took account of those costs while providing
clear guidance to the government as to the constitu­
tional limitations on its authority, and to taxpayers as
to how their due process rights are protected by the
statutory scheme. We take the opportunity provided by
this petition to further explicate our view.

App. 191
At issue on the present petition is whether 26
U.S.C. §§ 7210 and 7604 may be read to allow the im­
position of penal consequences for failure to comply
with an IRS summons or if levying of punishment for
disobedience under those sections requires review by a
federal court of the merits of a summons and, where
the merits are upheld, a reasonable opportunity to
comply with a court order of enforcement before puni­
tive or coercive sanctions may be imposed. Addressing
a view of 26 U.S.C. §§ 7210 and 7604 similar to that
advanced by the government on this petition, Judge
Friendly, writing for this Court, pointed out that:
If the statutory scheme were like that for en­
forcement of subpoenas of such agencies as
the Interstate Commerce Commission, 49
U.S.C. § 12, or the Civil Aeronautics Board, 49
U.S.C. § 1484, there would be merit in the
Government’s position that courts ought not
intervene at so early a stage; since disobedi­
ence to a subpoena under those statutes has
no penal consequences until a judge has or­
dered its enforcement, there is no occasion for
any preliminary resort to the courts. Here,
however, at least the criminal penalty of
§ 7210 is incurred by disobedience, and it is
not altogether plain that a contempt citation
under § 7604(b) may not be. Under such cir­
cumstances the principle of Ex parte Young,
1908, 209 U.S. 123, 147, 28 S. Ct. 441, 52
L. Ed. 714 and Oklahoma Operating Co. v.
Love, 1920, 252 U.S. 331, 336-337, 40 S. Ct.
338, 64 L. Ed. 596, comes into play; we see
no reason why that principle should not be

App. 192
applicable to a summons, disobedience of
which carries criminal penalties.... We are
not unmindful of the potentialities of delay in­
herent in such an extra round -potentialities
sufficiently serious without one, as illus­
trated, for example, by Penfield Co. of Cal. v.
S.E.C., 1947, 330 U.S. 585, 67 S. Ct. 918, 91
L. Ed. 1117; but the Government seems to be
a victim of its own Draconianism. We hold the
District Court had jurisdiction of the motion
and thus reach the question of our appellate
jurisdiction to review its denial.
Colton, 291 F.2d at 490.
Our view of the constitutional issues implicated in
these sections of the tax enforcement scheme and the
conflicts posed by the government’s “Draconianism” is
the same now is it was then. Reading 26 U.S.C. §§ 7210
and 7604 to allow the imposition of penal consequences
for failure to comply with an IRS summons renders the
sections unconstitutional unless the summoned tax­
payer has an opportunity to seek judicial review of the
summons before placing the taxpayer at risk of punish­
ment. In Colton we held that taxpayers could seek such
a review by filing a preliminary motion to quash an
IRS summons before deciding whether to comply. That
saving condition was excluded by the Supreme Court
in Reisman. 375 U.S. at 445; see also Kulukundis, 329
F.2d at 199. In our view, that leaves only the remedy
excluded in Colton - that “disobedience to [an IRS
summons] has no penal consequences [under either 26
U.S.C. §§ 7210 or 7604] until a judge has ordered its
enforcement,” 291 F.2d at 490 - to keep the scheme

App. 193
consistent with due process. Reisman advances this
view. 375 U.S. at 450 (“[W]e remit the parties to the
comprehensive procedure of the Code, which provides
full opportunity for judicial review before any coercive
sanctions may be imposed.”); see also Bisceglia, 420
U.S. at 151 (“Congress has provided protection from ar­
bitrary or capricious action by placing the federal
courts between the Government and the person sum­
moned [by the IRS].”). Schulz I provided our first op­
portunity to conform the law of this Circuit to that
view.
Absent the protections afforded by Colton, the
“Draconian” view of the statutory scheme advanced by
the government in Colton, and on this petition, would
render the scheme itself unconstitutional. In Schulz I
we found that Reisman and Bisceglia provide guidance
on how 26 U.S.C. §§ 7210 and 7604 must be read so as
to preserve agency immunity from preliminary suit
while avoiding the Ex parte Young concerns that we
identified in Colton. In light of this guidance, we held
that, before punishment for disobedience of an IRS
summons may be levied, the agency must seek enforce­
ment through a federal court in an adversarial pro­
ceeding through which the taxpayer can test the
validity of the summons. See United States v. Euge, 444
U.S. 707, 719 (1980) (“[T]he summoned party is enti­
tled to challenge the issuance of the summons in an
adversary proceeding in federal court prior to enforce­
ment, and may assert appropriate defenses.” (emphasis
added)); Donaldson v. United States, 400 U.S. 517, 525
(1971) (“Thus the [IRS] summons is administratively

App. 194
issued but its enforcement is only by federal court au­
thority in an adversary proceeding affording the op­
portunity for challenge and complete protection to the
witness.” (internal quotations marks omitted, em­
phasis added));3 see also United States v. LaSalle Nat.
Bank, 437 U.S. 298, 302 (1978) (§ 7604(a) procedure
commenced by petition followed by an adversarial
hearing); United States v. Edgerton, 734 F.2d 913, 915917 (2d Cir. 1984) (describing complete and properly
pursued § 7604(b) procedure leading to provision of a
coercive contempt penalty); United States v. Noall, 587
F.2d 123, 124-26 (2d Cir. 1978) (§ 7604(a) procedure
commenced by petition followed by an order to show
cause, submission of opposing affidavits, and argu­
ment). We further held in Schulz I that, if the summons
is not enforced, then no contempt sanction may be lev­
ied against the summoned party and no prosecution
under 26 U.S.C. § 7210 may lie; and, in the alternative,
if the summons is enforced by the court, then the sum­
moned party must have a reasonable opportunity to
comply with the court’s order and only upon refusal to
obey the court order may contempt sanctions be im­
posed or an indictment under 26 U.S.C. § 7210 pur­
sued.4 See Donaldson, 400 U.S. at 525; Reisman, 375
3 The holding in Donaldson that third parties do not have
an absolute right to intervene in enforcement proceedings is not
to the contrary - that holding was, of course, superceded by 26
§ 7609.
4 We rejected this interpretation of 26 U.S.C. § 7210 in Col­
ton. 291 F.2d at 489. That holding was constitutionally tenable
only in view of our determination that summoned witnesses
would have an earlier chance to test the merits of a summons in
a motion to quash. Informed by intervening decisions of this Court

App. 195
U.S. at 450. Any lesser protections would be constitu­
tionally insufficient and, with respect to 26 U.S.C.
§ 7604(b), would also be inconsistent with the law of
contempts. See Fed. R. Crim. P., Rule 42; Bloom u. Illi­
nois, 391 U.S. 194, 201-208 (1968); United States v.
Rizzo, 539 F.2d 458, 463-65 (5th Cir. 1976).
The rule of due process upon which we relied in
Schulz I, and upon which we rely now, can be stated
thus: any legislative scheme that denies subjects an
opportunity to seek judicial review of administrative
orders except by refusing to comply, and so put them­
selves in immediate jeopardy of possible penalties “so
heavy as to prohibit resort to that remedy,” Oklahoma
Operating Co. v. Love, 252 U.S. 331, 333 (1920), runs
afoul of the due process requirements of the Fifth and
Fourteenth Amendments. This is so even if “in the pro­
ceedings for contempt the validity of the original order
may be assailed.” Id. at 335; see also Reisman, 375 U.S.
at 446; Ex parte Young, 209 U.S. 123,147-48 (1908).
According to the government’s present view of 26
U.S.C. §§ 7210 and 7604, the agency may summon a
taxpayer and the taxpayer must choose either to com­
ply or, if not, put herself directly at jeopardy of sanction
without an intervening opportunity to seek judicial
and the Supreme Court, we reversed our Colton holding in Schulz
I. Having considered the government’s arguments on this ap­
peal, we see no reason to change our view again, particularly
in view of the fact that § 7210 provides for prosecutions only
against those “duly summoned ... under sections 6420(e)(2),
6421(g)(2), 6427(j)(2), 7602, 7603, and 7604(b).” 26 U.S.C. § 7210
(emphasis added).

App. 196
review of the summons. In Colton we rejected that view
as contrary to due process. The remedy we proposed
there, consistent with Ex parte Young, was a prospec­
tive suit in the form of a motion to quash. The Supreme
Court in Reisman rejected that solution and instead
held that the agency has no power or authority to
compel compliance with a summons and must pursue
enforcement in an adversarial proceeding before a fed­
eral judge. Reisman, 375 U.S. at 445-46. The Court fur­
ther held that “[i]n such a proceeding only a refusal to
comply with an order of the district judge subjects the
witness to contempt proceedings,” id. at 446, and that
attempts to quash IRS summonses are “subject to dis­
missal for want of equity,” id. at 443. Addressing di­
rectly Ex parte Young issues, the Court recognized that
prosecution under 26 U.S.C. § 7210 and attachment
under 26 U.S.C. § 7604(b) may present sufficient threat
to trigger due process concerns. Id. at 446-50. However,
noting the lack of administrative enforcement and the
limited applicability of both § 7210 and § 7604(b) to
“default” or a “contumacious refusal to honor a sum­
mons,” id. at 449, the Court held that “in any of these
procedures . .. the witness may challenge the sum­
mons on any appropriate ground,” id. In light of these
holdings, the Court concluded that the procedure for
challenging IRS summonses “specified by Congress
works no injustice and suffers no constitutional inva­
lidity” because it “provides full opportunity for judicial
review before any coercive sanctions may be imposed.”
Id. at 450.

App. 197
In our view, this provides a reasonable, nonDraconian, solution to the problem we noted in Colton
by requiring both judicial review of an IRS summons
and an intervening opportunity to comply with a court
order of enforcement prior to the imposition of coercive
or punitive sanctions. See Kulukindis, 329 F.2d at 199.
Schulz I made clear that view. Nothing in the govern­
ment’s petition inspires us to withdraw except insofar
as Schulz I may be read to prohibit pre-hearing attach­
ments of those summoned by the IRS who have wholly
defaulted or contumaciously refused to comply in order
to ensure their presence at a promptly held enforce­
ment hearing. Such attachments are meant solely to
ensure the presence of an obstinate taxpayer at an en­
forcement hearing. Because indefinitely detaining a
taxpayer whose summons has yet to be enforced by a
court would violate the taxpayer’s due process rights,
the enforcement hearing must be held as soon after the
taxpayer’s arrest as possible. See 26 U.S.C. § 7604(b)
(allowing attachment “as for contempt,” and, if appro­
priate after “a hearing of the case,” issuance of orders
“not inconsistent with the law for the punishment of
contempts”); United States v. Hefti, 879 F.2d 311, 312
n.2 (8th Cir. 1989) (“Judicial enforcement of orders un­
der 26 U.S.C. § 7602 is governed by 26 U.S.C. § 7604(b).
Only a refusal to comply with an order of the District
Court subjects the witness to contempt proceedings.”
(citing Reisman)); see also United States v. Powell, 379
U.S. 48, 58, n.18 (1964) (pointing out that summons
enforcement “proceedings are instituted by filing a
complaint, followed by answer and hearing. If the tax­
payer has contumaciously refused to comply with the

App. 198
administrative summons and the Service fears he
may flee the jurisdiction, application for the sanc­
tions available under § 7604(b) might be made simul­
taneously with the filing of the complaint.” (emphasis
added)); Reisman, 375 U.S. at 446-50. Neither this
opinion nor Schulz I prohibits the issuance of pre-hear­
ing attachments consistent with due process and the
law of contempts. See 26 U.S.C. § 7604(b).
CONCLUSION
For the foregoing reasons the petition for rehear­
ing is GRANTED for the limited purpose of providing
clarification to Schulz I contained in this opinion.
Schulz I shall remain in force to the extent that it is
not inconsistent with this opinion. The motion to ex­
tend the time for filing of a petition for rehearing en
bane is GRANTED. Either party may file such a mo­
tion within 45 days of the filing of this opinion.

App. 199
APPENDIX R
UNITED STATES COURT OF APPEALS
For the Second Circuit
August Term, 2004
(Argued: December 13, 2004
Decided: January 25, 2005)
Docket No. 04-0196-cv
Robert L. Schulz,
Plaintiff-Appellant,
—v.—
Internal Revenue Service
and Anthony Roundtree,
Defendants-Appellees.

Before :
Feinberg, Straub, and Raggi, Circuit Judges.
(Filed Jan. 25, 2005)
Appeal from a judgment in the United States District
Court for the Northern District of New York (David N.
Hurd, Judge), dismissing for lack of subject matter ju­
risdiction appellant’s motions to quash administrative
summonses served upon him by the Internal Revenue
Service.
AFFIRMED.

App. 200

Robert L. Schulz, pro se, Queensbury, N.Y.
Robert R Storch, Assistant United States Attorney
for the Northern District of New York (Glenn T.
Suddaby, United States Attorney, on the brief), Albany,
N.Y., for Defendants-Appellees.

PER CURIAM:
In May and June 2003 defendant-appellee, the
Internal Revenue Service (“IRS”), served plaintiffappellant, Robert L. Schulz, with a series of adminis­
trative summonses seeking testimony and documents
in connection with an IRS investigation of Schulz.
Schulz filed in the United States District Court for
the Northern District of New York motions to quash
those summonses. In an order dated October 16,2003,
Magistrate Judge David R. Homer dismissed Schulz’s
motions for lack of subject matter jurisdiction, finding
that, because the IRS had not commenced a proceeding
to enforce the summonses, a procedure described in 26
U.S.C. §7604, Schulz was under no threat of conse­
quence for refusal to comply and, until such time as the
IRS chose to pursue compulsion in a United States dis­
trict court, no case or controversy existed. Magistrate
Judge Homer further found that if the IRS did attempt
to compel Schulz to produce testimony and documents
named in the summonses, the enforcement procedure

App. 201
described in §7604 would provide Schulz with ade­
quate opportunity to contest the requests.
Schulz filed an appeal and objection in the District
Court. By order dated December 3, 2003, the District
Court denied those objections and dismissed the ap­
peal. Schulz now appeals from that final decision of the
District Court. We assert jurisdiction pursuant to 28
U.S.C. §1291 and affirm.
It is well-established that “Article III of the Con­
stitution confines the jurisdiction of the federal courts
to actual ‘Cases’ and ‘Controversies.’ ” Clinton v. City of
New York, 524 U.S. 417, 429 (1998) (citations omitted).
To demonstrate the standing necessary to invoke the
jurisdiction of the federal courts Schulz must “allege
personal injury fairly traceable to the defendant’s al­
legedly unlawful conduct and likely to be redressed by
the requested reliefT Allen v. Wright, 468 U.S. 737, 751
(1984). This injury may not be speculative or abstract,
but must be distinct and definite. Id.
In its present posture, Schulz’s motion does not
satisfy this requirement. As the Supreme Court pointed
out in United States v. Bisceglia, IRS summonses have
no force or effect unless the Service seeks to enforce
them through a §7604 proceeding. 420 U.S. 141, 146
(1975), partially superseded by 26 U.S.C. §7609, as
stated in In re Does, 688 F.2d 144, 148 (2d Cir. 1982).
The IRS has not initiated any enforcement procedure
against Schulz and, therefore, what amount to re­
quests do not threaten any injury to Schulz. Of course,
if the IRS should, at a later time, seek to enforce these

App. 202
summonses, then the procedures set forth in §7604(b)
will afford Schulz ample opportunity to seek protection
from the federal courts. See Bisceglia, 420 U.S. at 146;
see also Reisman u. Caplin, 375 U.S. 440, 447-50 (1964)
(denying injunctive relief from IRS summonses be­
cause §7604(b) “provides full opportunity for judicial
review before any coercive sanctions may be imposed”);
United States v. Tiffany Fine Arts, Inc., 718 F.2d 7, 11
(2d Cir. 1983) (“[Bisceglia] reasoned that by creating
the enforcement proceeding mechanism Congress had
intended to place the federal courts between the IRS
and the person summoned, and that the courts could
contain [the threat of IRS overreaching] by narrow­
ing the scope of or refusing to enforce abusive sum­
monses.”).
We realize that our holding today stands in direct
contradiction to our previous decisions in Application
of Colton, 291 F.2d 487, 491 (2d Cir. 1961), and In re
'Turner, 309 F.2d 69, 71 (2d Cir. 1962). While reversal
of our prior precedent is never a matter we regard
lightly, we take no small solace in Judge Friendly’s dis­
cussion of Colton and Turner in United States u. Kulukundis, 329 F.2d 197 (2d Cir. 1964). There, Judge
Friendly, who authored both Colton and Turner,
points out that Reisman “seems to destroy the basis
underlying decisions of this court which authorized
applications to vacate [an IRS] summons (and appeals
from their denial) in advance of any judicial proceed­
ing by the Government for their enforcement.” Id. at
199. In light of this, we view ourselves today as com­
pleting a task begun forty years ago and hold that,

App. 203
absent an effort to seek enforcement through a federal
court, IRS summonses apply no force to taxpayers,
and no consequence whatever can befall a taxpayer
who refuses, ignores, or otherwise does not comply
with an IRS summons until that summons is backed
by a federal court order. In addition, we hold that if
the IRS seeks enforcement of a summons through the
courts, those subject to the proposed order must be
given a reasonable opportunity to contest the govern­
ment’s request. If a court grants a government re­
quest for an order of enforcement then we hold,
consistent with 26 U.S.C. §7604 and Reisman, that
any individual subject to that order must be given a
reasonable opportunity to comply and cannot be held
in contempt, arrested, detained, or otherwise pun­
ished for refusing to comply with the original IRS
summons, no matter the taxpayer’s reasons or lack of
reasons for so refusing. See Reisman, 375 U.S. at 446
(“[0]nly a refusal to comply with an order of the
district judge subjects the witness to contempt pro­
ceedings.”). Any lesser protections would expose tax­
payers to consequences derived directly from IRS
summonses, raising an immediate controversy upon
their issuance. Holding as we have, however, allows
us to hold further that issuance of an IRS summons
creates no Article III controversy and, therefore, fed­
eral courts do not have jurisdiction over motions to
quash IRS summonses in the absence of some ef­
fort by the IRS to seek court enforcement of the sum­
mons.

App. 204
Consistent with these holdings, we find that, on
the facts before us, no force has been applied to
Schulz and his request for action is premature.
Thedecision of the District Court dismissing Schulz’s
motions for want of subject matter jurisdiction is AF­
FIRMED.1

1 This opinion has been circulated to the active members of
this Court prior to filing.

App. 205
APPENDIX S
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ
Plaintiff,
vs
UNITED STATES; INTERNAL
REVENUE SERVICE; and
ANTHONY ROUNDTREE,

03-MC-71

Defendants.
OF COUNSEL:

APPEARANCES:
ROBERT L. SCHULZ
Plaintiff, Pro Se
2458 Ridge Road
Queensbury, NY 12804
DAVID N. HURD
United States District Judge

ORDER
(Filed Dec. 3, 2003)
On October 16, 2003, Magistrate Judge David R.
Homer filed a Memorandum-Decision and Order which
dismissed plaintiff’s motion to squash IRS summons.
(Docket No. 7). Plaintiff filed an appeal and objection
to the Magistrate Judge’s decision (Docket Nos. 8,9,10,
12,13,14, and 15). The appeal was taken on submit on
November 28, 2003.

App. 206
Upon a de novo review of the decision and all sub­
missions, it is
ORDERED, that the objections to the decision are
DENIED and the appeal is DISMISSED.
IT IS SO ORDERED.
/s/

Dated: December 3, 2003
Utica, New York.

David N. Hurd
United States District Judge

App. 207
APPENDIX T
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff,
V.
UNITED STATES, INTERNAL
REVENUE SERVICE and
ANTHONY ROUNDTREE,

No. 03-MC-71
(DNH/DRH)

Defendants.

APPEARANCES:

OF COUNSEL:

ROBERT L. SCHULZ
Plaintiff Pro Se
2458 Ridge Road.
Queensbury, New York 12804
DAVID R. HOMER
U.S. MAGISTRATE JUDGE
MEMORANDUM-DECISION AND ORDER
(Filed Oct. 16, 2003)
Presently pending is a motion by plaintiff Robert
L. Schulz (“Schulz” to quash a summons issued by de­
fendant Internal Revenue Service (IRS). Docket No. 1.
For the reasons which follow, that motion is dismissed.

App. 208
I. Background
The following facts appear from the motion pa­
pers, with exhibits, filed by Schulz.
On August 15, 2003, Schulz was served with an
administrative summons by defendant Anthony Roundtree, an IRS Revenue Agent. Mot. (Docket No. 1) at
H 19. Schulz filed a motion to quash this summons
on September 12, 2003. Docket No. 1. In his motion,
Schulz alleges that the summons should be quashed
for lack of jurisdiction, bad faith, defects in the issu­
ance of the summonses, and related grounds. It does
not appear that the IRS has yet commenced a proceed­
ing to enforce the summons as permitted by 26 U.S.C.
§ 7604 1
II. Discussion
It appears that the motion was served on defend­
ant Roundtree. Docket No. 6 (affidavit of service). How­
ever, none of the defendants have responded to the
motion or other wise appeared in this matter. “The fact
that there has been no response to a . .. motion does
not, of course, mean that the motion is to be granted
automatically.” Champion v. Artuz. 76 F.3d 483,486 (2d
Cir. 1996). Even in the absence of a response, a moving
party is entitled to prevail only if the material facts
demonstrate entitlement to prevail as a matter of law.
Id. Because the IRS has not responded, however, the
1 Schulz has filed two other motions to quash summonses
which are part of a separate case, see Schulz v. IRS. No. 03-MC50 (DNH/DRH) (N.D.N.Y. filed June 19, 2003).

App. 209
facts as set forth in Schulz’s papers are accepted as
true. Adirondack Cycle & Marine. Inc, v. American
Honda Motor Co.. Inc.. No. 00-CV-1619; 2002 WL
449757, at *1 (N.D.N.Y. Mar. 18,2002) (McAvoy, J.) (cit­
ing Lopez v. Reynolds. 998 F. Supp. 252, 256 (W.D.N.Y,
1997)).
Accepting the facts asserted by Schulz as true for
purposes of this motion, however, Schulz’s motion re­
mains fatally defective. It appears well settled that a
taxpayer may not seek a court order quashing an IRS
summons for at least two reasons. First, until the IRS
commences a proceeding to enforce compliance with a
summons pursuant to 26 U.S.C. § 7604, the taxpayer is
under no compulsion to disclose information or records.
Second, proceedings commenced by the IRS under
§ 7604 afford a taxpayer an adequate method of assert­
ing any defenses the taxpayer may have to compelled
compliance with a summons. See Gutierrez v. United
States. No. CS-95-599-RHW, 1996 WL 751342, at *2
(E.D. Wash. July 31,1996); Radio v. Commissioner. 138
F.R.D. 341, 344 (D.R.I.1991) (holding that a summons
recipient cannot petition a district court to quash a
summons but must raise his challenge in a district
court enforcement action filed by the IRS); Ramos v.
United States. 375 F. Supp. 154, 155 (E.D. Pa. 1974)
(holding that a remedy at law exists through interven­
tion of the taxpayer in judicial proceedings brought by
the IRS to enforce compliance with a summons).
Here, the IRS has not yet commenced an enforce­
ment action as to the summons at issue here as is re­
quired for a court to consider the contentions raised by

App. 210
Schulz on this motion. Accordingly, this Court lacks ju­
risdiction to entertain these motion and the motion
must be dismissed.
III. Conclusion
For the reasons stated above, it is hereby
ORDERED that Schulz’s motions to quash IRS
summonses (Docket No. 1) is DISMISSED and the
Clerk shall close the above captioned matter.
IT IS SO ORDERED.
DATED: October 16, 2003 /s/ David R. Homer
UNITED STATES
Albany, New York
MAGISTRATE JUDGE

App. 211
APPENDIX U
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF NEW YORK
ROBERT L. SCHULZ,
Plaintiff
v.
UNITED STATES, et al
Defendants

)
)
)
)
)
)
)

CASE No. l:15-cv-1299
BKS/CFH

STATEMENT OF MATERIAL FACTS AS TO
WHICH ROBERT L. SCHULZ CONTENDS
THERE IS NO GENUINE ISSUE FOR TRIAL
(Filed Jan. 2, 2018)
In support of his motion for Summary Judgment
and pursuant to Federal Rules of Civil Procedure 56
and Local Rule of Practice 7.1(a)(3), Plaintiff (“Schulz”)
submits the following material facts set forth below as
to which he contends there is no genuine dispute.
Factual Background and Procedural History
1.

From 1979 to the present, Robert L. Schulz has
been claiming and exercising his First Amendment
Right of Free Speech and his Right to Petition
Government for Redress of Grievances, principally
by petitioning the Judiciary, while encouraging
other people to do the same, all for the purpose
holding public officials accountable to their State
and Federal Constitutions, and the laws pursuant

App. 212
thereto. (Dkt. No. 136, Attachment 1, affidavit in
support of motion to quash subpoenas, para. 5).
2.

To assist Schulz in his endeavor to hold govern­
ment accountable: in 1979, Schulz created the
Tri-County Taxpayers Association (“TCTA”) as a
non-partisan, not-for-profit 501(0(4) corporation to
serve the civic education and social welfare/liberty
interests of the people in New York State’s Warren,
Washington and Saratoga Counties; in 1990,
Schulz collapsed TCTA and created the All-County
Taxpayers Association (“ACTA”) as a non-partisan,
not-for-profit, 501(0(4) corporation to serve the
civic education and social welfare/liberty interests
of the people throughout New York State’s 62
counties; in 1997, Schulz collapsed ACTA and cre­
ated We The People Foundation for Constitutional
Education (“WTPF”) as a non-partisan, not-forprofit 501(c)(3) corporation and We The People
Congress (“WTPC”) as a non-partisan, not-forprofit 501(c)(4) corporation, together We The Peo­
ple organization (“WTP”) to serve the civic educa­
tional and social welfare/liberty interests of the
People of the United States of America; in 2011,
Schulz created We The People of New York, Inc.
(“WTP-NY”) as a 501(c)(4), non-partisan, not-forprofit, independent “affiliate” of WTP. (Dkt. No.
136, attachment #1, affidavit in support of motion
to quash subpoena, para. 6).

3.

From 1979 to the present, Schulz did not request
nor did he ever receive any earned income from
TCTA, ACTA, WTPF, WTPC or WTP-NY; with re­
spect to his out-of-pocket expenses incurred on
behalf of the organizations, Schulz’s practice has
always been to invoice the organization(s) and to

App. 213
be reimbursed if and when the organization(s) was
able to do so. (Dkt. No. 136, attachment #1, affida­
vit in support of motion to quash subpoenas, para.
7).
4.

In 1988, at age 49, Schulz fully retired from his
first career, choosing to devote the rest of his life
to helping people understand the history, mean­
ing, effect and significance of the provisions of the
Declaration of Independence and their State and
Federal constitutions and how to legally hold their
public officials accountable to the rule of law pur­
suant to the First Amendment’s Petition Clause.
(Dkt. No. 136, attachment #1, affidavit in support
of motion to quash subpoenas, para. 8).

5.

Since 1988, in order to pay his property taxes and
meet his family and household expenses, Schulz
has sold off thirteen parcels of land from his home­
stead, surrendered his three life insurance policies
and received gifts from family and friends. (Dkt.
No. 136, attachment #1, affidavit in support of
motion to quash subpoenas, para. 9 and Exhibit W
attached thereto, “DOCUMENT 36: Land Sales
2003-Present,” Exhibit X attached thereto,
“DOCUMENT 38: Schulz’s Surrender of His Life
Insurance Policies,” Exhibit Y attached thereto,
“DOCUMENT 37: Gifts Deposited in Schulz’s Per­
sonal Account 2003-Present”) and Exhibit Z at­
tached thereto which contains copies of deeds of
land known as “Lot 7” and “Lot 8” purchased from
Schulz by John and Kathy Salvador in 1988 and
sold by the Salvadors to We The People Founda­
tion for Constitutional Education, Inc. in 1999- the
only parcels of land ever owned to WTP.

App. 214
6.

From July of 1999 through November of2002, pur­
suant to the First Amendment, WTP repeatedly
petitioned Defendant United States to respond to
Petitions for Redress of Grievances related to al­
leged violations by the United States of:
a)

the Constitution’s war powers
clauses (via the Iraq Resolution); and

b)

the Constitution’s money clauses (via
the Federal Reserve System); and

c)

the Constitution’s privacy clauses
(via the U.S.A. Patriot Act); and

d)

the Constitution’s tax clauses (via
the direct, un-apportioned tax on la­
bor).

(Dkt. No. 136, attachment 1, affidavit in support of
motion to quash subpoenas, para. 10 and Exhibit
N(a) attached thereto. “WTP’s 1st Amendment Pe­
tition regarding the Iraq Resolution,” Exhibit N(b)
attached thereto. “WTP’s Petition for Redress re­
garding the Federal Reserve System.” Exhibit N(c)
attached thereto, “WTP’s 1st Amendment Petition
regarding the U.S.A Patriot Act, and Exhibit Nidi
attached thereto. “WTP’s Petition regarding the
direct, un-apportioned tax on labor”).
7.

On March 15, 2003, WTP petitioned Defendant
United States for redress of grievances related to
alleged violations by the United States of:
e)

26 CFR Sections 301.3402 (p)-l.,
301.3402 (p)-l (b)(2), 301.6109-l(c),
301.7701-16,1441-1446,31 CFR Sec­
tion 215.6, 8 USC 1324(a)(3)(A), 26
USC Sections 3402(p)(3)(A), 3504, 26

App. 215
USC 7701(a)16, (via the federal pol­
icy of forcing companies to withhold
taxes from the paychecks of workers
long before those taxes were due to
be paid by the workers); and
f)

the People’s Right of enforcement of
their First Amendment Right to Peti­
tion the Government for Redress of
Grievances (via the federal policy of
forcing companies to withhold taxes
from the paychecks of workers long
before those taxes were due to be
paid by the workers).

(Dkt. No. 136, attachment #1, affidavit in support
of motion to quash subpoenas, para. 12 and Ex­
hibit A “copy of March 15, 2003 letter” annexed to
Schulz Affidavit of even date).
8.

The written Petition for Redress of Grievances re­
garding tax withholding (paragraphs 7 above) was
included in a Blue Folder labeled, “Legal Termina­
tion of Tax Withholding for Companies, Workers
and Independent Contractors.” (Dkt. No. 136, at­
tachment #1, affidavit in support of motion to
quash subpoenas, para. 13).

9.

The Blue Folder encouraged companies, workers
and independent contractors to submit the content
of the Blue Folder to their corporate lawyers and
CPAs for a “rigorous review” of its accuracy with
the goal of obtaining answers to common ques­
tions and legally ending tax withholding. (Dkt. No.
136, attachment 1, affidavit in support of motion
to quash subpoenas, para. 13 and Exhibit B annexed to Schulz Affidavit of even date).

App. 216
10. In its March 15, 2003 letter transmitting the Blue
Folder to Defendant United States, WTP respect­
fully put Defendant on notice that should Defen­
dant not respond to the Petition. WTP would make
the contents of the Petition freely available at no
cost to the public. (Dkt. No. 136, attachment 1,
affidavit in support of motion to quash subpoenas,
para. 14 and Exhibit A “copy of March 15,2003 let­
ter” annexed to Schulz Affidavit of even date).
11. Because Defendant did not respond WTP posted
the entire content of the Blue Folder on its web­
site, there to be anonymously downloaded by any
interested person free of any charge or fee.
(Dkt. No. 136, attachment #1, affidavit in support
of motion to quash subpoenas, para. 15).
12. WTP posted an article on its website entitled, “IRS
& Dal Put On Notice: National Campaign To Stop
Withholding” with links to said March 15, 2003
letter and to all the contents of the Blue Folder. In
the article, WTP instructed people to download
and print those documents, free of charge. For
those who for any reason could not download and
print the documents WTP said it would mail them
a copy whether or not they were able to send WTP
a nominal donation of $20 to cover its printing and
mailing costs. WTP said that if anyone did not
have the $20 WTP would send the material free of
charge anyway. Exhibit C. “WTP Chairman’s Re­
ports: 2003, page 191”
13. WTP also made copies of the Blue Folder available
for pick up, anonymously, free of any charge or
fee, at meetings WTP had previously scheduled
across the county in the spring of 2003 for the

App. 217
purpose of discussing WTP’s overall program re­
garding the First Amendment Right to Petition
and WTP’s upcoming, first impression lawsuit
against the United States for a determination of
the Rights of the People and the obligations of the
government under the Petition Clause of the First
Amendment. (Dkt. No. 136, attachment #1, affida­
vit in support of motion to quash subpoenas, para.
16).
14. WTP also posted a message on its website that
while it preferred not to have to mail any hard cop­
ies of the Blue Folder, it would do so for anyone
interested in reading the contents of the Withhold­
ing Petition for Redress but who could not down­
load the contents from WTP’s website and could
not attend one of the scheduled meetings. (Dkt.
No. 136. attachment #1. affidavit in support of mo­
tion to quash subpoenas, para. 17).
15. While WTP requested a voluntary donation of $20
to cover its cost of duplicating and mailing the
Blue Folder by Priority Mail, WTP said it would
waive the $20 cost for those people who inform
WTP that they would like to receive the Blue
Folder by mail but did not have $20 to cover the
printing and mailing costs. (Dkt. No. 136, attach­
ment #1, affidavit in support of motion to quash
subpoenas, para. 17 and Exhibit T annexed
thereto).
16. The March 15, 2003 letter requested that the
Government let WTP know if any of the material
was “faulty or misleading.” Exhibit A “copy of
March 15,2003 letter” annexed to Schulz Affidavit
of even date).

App. 218
17. The letter specifically stated, “The We The People
organization was not in the business of selling any
goods or services. The information we are provid­
ing for companies is free of charge.” Exhibit A
“copy of March 15, 2003 letter” annexed to Schulz
Affidavit of even date).
18. On March 21, 2003 WTP posted an article about
Operation Stop Withholding on its website enti­
tled, “IRS Put on Notice Again: Show Us Where
We’re Wrong” with a link to WTP’s March 21,2003
letter to Frank Nixon, the area IRS Director, in
which WTP let him know of the time and location
of the Operation Stop Withholding meeting sched­
uled for Irvine CA on March 23,2003 and request­
ing that experts from his office and that of the U.S.
attorney attend to let WTP know if it was saying
anything that was false or misleading. The article
included a link for people to freely download the
full contents of the Blue Folder. Exhibit C. “Chair­
man’s Reports: 2003,” page 157, Schulz Affidavit of
even date.”
19. On April 3, 2003, WTP posted another article
about Operation Stop Withholding on its website
entitled, “Operation Stop Withholding Underway:
No Objections by IRS or DOJ” announcing a full
schedule of meetings and letting people know that
the meetings were free and open to the public and
that the “package of instructional materials and
forms will be distributed for free.” The article in­
cluded a link for people to freely download the full
contents of the Blue Folder. Exhibit C “Chairman’s
Reports: 2003, page 171,” Schulz Affidavit of even
date.

App. 219
20. Beginning on April 5, 2003, and for the next 37
days, WTP made approximately three thousand,
five hundred (3,500) copies of the Blue Folder
available for pick up, free of charge and anony­
mously, from a side table during meetings previ­
ously arranged by WTP for the purpose of
educating the general public on the history, mean­
ing, significance and effect of the First Amend­
ment Right to Petition as follows. A day or two
before each of the 37 meetings, WTP faxed a for­
mal notice to the local IRS Director, to let him/her
know the date, time and location of the next meet­
ing and to respectfully request, one or more of
their most knowledgeable people attend the meet­
ing, along with one or more knowledgeable people
from the office of [the U.S. Attorney] to observe and
listen to what WTP would be doing and saying.
Nashua, New Hampshire
Ashville, North Carolina
Atlanta, Georgia
Tampa, Florida
Houston. Texas
Dallas, Texas
Austin, Texas
San Antonio, Texas
El Paso, Texas
Albuquerque, New Mexico
Tucson, Arizona
Phoenix, Arizona
Irvine, California
Las Vegas, Nevada
Bakersfield, California
Fresno, California
Sacramento, California
Santa Cruz, California

April 5,2003
April 8, 2003
April 9,2003
April 10, 2003
April 12,2003
April 13, 2003
April 14, 2003
April 15, 2003
April 16, 2003
April 17, 2003
April 18, 2003
April 19,2003
April 26, 2003
April 27, 2003
April 29, 2003
April 30, 2003
May 1,2003
May 2,2003

App. 220
San Jose, California
Reno, Nevada
Medford, Oregon
Bend, Oregon
Eugene, Oregon
Corvalis, Oregon
Portland, Oregon
Seattle, Washington
Spokane, Washington
Salt Lake City, Utah
Denver, Colorado
Colorado Springs, Colorado
Kansas City, Missouri
Des Moines, Iowa
Minneapolis, Minneapolis
Milwaukee, Wisconsin
Chicago, Illinois
Columbus, Ohio
Harrisburg, Pennsylvania

May 3, 2003
May 4, 2003
May 6, 2003
May 7, 2003
May 8, 2003
May 9, 2003
May 10, 2003
May 11, 2003
May 13,2003
May 15, 2003
May 17, 2003
May 18, 2003
May 20, 2003
May 21, 2003
May 22, 2003
May 23,2003
May 24, 2003
May 25, 2003
May 27, 2003

21. On April 13, 2003 WTP posted a fourth article
about Operation Stop Withholding on its website.
The article included a link for people to freely
download the full contents of the Blue
Folder. Exhihit C “Chairman’s Reports: 2003,
page 187,” Schulz Affidavit of even date.
22. On May 5, 2003, WTP posted a fifth article about
Operation Stop Withholding on its website with
a link for people to freely download the full
contents of the Blue Folder.1 Exhibit_C
1 In his Memorandum dated November 14, 2014 (Exhibit —_
annexed to Schulz affidavit of even date), IRS Agent David Gor­
don says, in error, that the visitor to the WTP website had to enter
a password before he/she could access the Forms that were ineluded in the Blue Folder. Exhibit__ annexed to Schulz Affidavit

App. 221
“Chairman’s Reports: 2003, page 203,” Schulz Affi­
davit of even date.
23. On May 16,2003, WTP posted a sixth article about
Operation Stop Withholding on its website identi­
fying the operation as part of WTP’s on-going
Right to Petition process and including the link for
people to freely download the full contents of the
Blue Folder, again reminding the reader that for
those who for any reason could not download and
print the documents WTP said it would mail them
a copy, suggesting a nominal donation of $20 to
discourage people from asking WTP to mail them
a copy and to cover WTP’s cost of the folder and
the cost of printing and mailing, and reminding
people that it was WTP’s policy that if anyone not
have $20 to cover WTP’s costs, WTP would send
the material free of charge anyway. Exhibit C
“Chairman’s Reports: 2003, page 206,” Schulz Affi­
davit of even date.
24. The Tax Withholding Petition for Redress (the
“Blue Folder”) was never for sale nor ever “sold” to
anyone; a total of 225 copies of the Blue Folder
were mailed to people, some of whom volunteered
to send $20 to cover the cost of printing and mail­
ing; WTP did not send invoices to any of these
individuals and did not require any payment or
donation to be made prior to mailing the Blue
Folder. (Dkt. No. 136, attachment #1, affidavit in
support of motion to quash subpoenas, para. 18).

of even date. The Blue Folder, in its entirety, Forms and all, was
available for free download until prohibited by McAvoy Court on
August 9, 2007.

App. 222
25. In April of 2003, the IRS summoned the books and
records of Schulz and WTP as part of what it called
an investigation under 26 U.S.C. Section 6700
(prohibits abusive tax shelters); this was the be­
ginning of an extraordinary interruption by De­
fendant United States of WTP’s normal business
activities undertaken in pursuit of its mission and
purpose, as clearly expressed in WTP’s arti­
cles of incorporation and in its IRS Form
1023 - to help People to become better informed
about: a) their Rights as guaranteed by their
State and Federal Constitutions; b) whether those
in government have stepped outside the bounda­
ries drawn around their power; and c) how to in­
telligently and rationally hold the government
accountable by claiming and exercising Rights
guaranteed by the First Amendment’s Petition
Clause. (Dkt. No. 136, attachment 1, affidavit in
support of motion to quash subpoenas, para. 19)
(For a copy of WTP’s articles of incorporation and
IRS Form 1023 see Exhibit D. “WTPF Corporate
Records” annexed to Schulz’s Affidavit of even
date, pages 3 and 230), and Exhibit F. “WTPC Cor­
porate Record” annexed to Schulz’s Affidavit of
even date, at pages 1 and 55.
26. Since those initial summonses in 2003, Schulz has
had to devote an extraordinary number of man­
hours to an extraordinary number of enforcement
actions between WTP and Defendant United
States, preventing Schulz from providing the level
of leadership essential to WTP’s educational and
social welfare mission; with that unavoidable dis­
traction and without that leadership, without
“making things happen and getting things done”
the organization has fractured. (Dkt. No. 136,

App. 223
attachment 1, affidavit in support of motion to
quash subpoenas, para. 19, and Exhibit P annexed
thereto, “Listing of the legal cases, the number of
significant decisions in each case, and their time
frame”).
27. In 2003 Schulz sued the United States seeking a
court order to quash the summonses on the ground
that WTP’s activity did not equate to an “abusive
tax shelter,” and that the United States was
merely retaliating against Schulz and WTP be­
cause of their repeated First Amendment petitions
for redress of grievances relating to alleged viola­
tions by Defendant United States of the war,
money, privacy and tax clauses of the Constitution
and laws pursuant thereto. Schulz v IRS, 395 F.3d
297 (January 25, 2005) and 413 F.3d 297 (June 29,
2005) (aSchulz 2”). (Dkt. No. 136, attachment #1,
affidavit in support of motion to quash subpoenas,
para. 20)
28. In 2003 itself, WTP’s Blue Folder-related ac­
tivities took up an insignificant amount of
WTP’s time and resources, small and unim­
portant in view of WTP’s overall activities,
total revenues and total expenses. Exhibit C.
annexed to Schulz Affidavit of even date is a copy
of approximately 55 updates, posted in 2003 on
WTP’s website and written by Schulz in his capac­
ity as Chairman of WTP, reporting on the pleth­
ora of WTP’s active, non-Blue Folder related
activities, all in keeping with WTP’s tax-exempt
status.
29. WTP’s cost ($4,500) of duplicating and mailing 225
copies of the Blue Folder at $20 each represented

App. 224
.82% of WTP’s Total Expense. WTP’s gross rev­
enue from 225 donations of $20 would represent
.84% of WTP’s Gross Revenue. (Dkt. # 136,
Attachment #1, affidavit in support of motion to
quash, Exhibits R and S attached thereto are cop­
ies of WTP’s tax returns for 2003, showing a com­
bined total revenue of $529,704, and combined
total expenses of $546,193).
30. In 2003, while Schulz 1 was working its way
through the Northern District of New York and
the 2nd Circuit, WTP announced that it was seek­
ing donations for two upcoming activities: a) WTP
would be hiring an attorney to bring an action in
2004 against the United States in the federal court
in the District of Columbia for a declaration of the
Rights of the People and the obligations of the gov­
ernment under the last ten words of the First
Amendment - that is, the “petition clause”; and b)
WTP would be sponsoring a Give Me Liberty na­
tional conference in January of 2004, in Washing­
ton D.C. at a major Hotel, which conference would
focus on the Right to Petition the Government for
Redress of Grievances regarding alleged viola­
tions by the government of the Rule of Law. (Dkt.
No. 136, attachment #1, affidavit in support of mo­
tion to quash subpoenas, para. 21),
31. In January, 2004, as planned and at great expense,
WTP sponsored the Give Me Liberty 2004 national
conference at the Crystal City Marriot; expenses
were met by donations from the public in 2003;
the conference was free and open to the public;
there was no charge or fee to attend. (Dkt. No. 136,
attachment 1, affidavit in support of motion to

App. 225
quash subpoenas, para. 22 and Exhibit O annexed
thereto, “List of WTP’s principal activities).
32. In July of 2004, as planned and at great expense,
including $287,000 for its attorney, from donations
by the public beginning in 2003, WTP sued De­
fendant United States for a declaratory judgment
- a declaration of the Rights of the People and
the obligations of the Government under the
First Amendment’s petition clause. We The People,
Schulz, et al., u. United States, 485 F.3d 140 (D.C.
Circuit, May 8, 2007). (“Schulz 2”). (Dkt. No. 136,
attachment #1, affidavit in support of motion to
quash subpoenas, para. 23).
33. In July of 2004, as planned and at great expense,
including $287,000 for its attorney from donations
by the public beginning in 2003,1450 individuals
from across the country, including Schulz, joined
WTP as plaintiffs to ask the Court to answer two
questions: first, whether Defendant United States
was obligated to respond to WTP’s First Amend­
ment Petitions for Redress of Grievances regard­
ing the alleged violations by Defendant United
States of the Constitution’s war, money, privacy
and tax provisions; and second, if the People had
the right to impose economic sanctions on Defen­
dant United States if Defendant United States
first ignored the Constitution and then ignored the
people’s First Amendment Petitions for Redress.
We The People, Schulz, et al., v. United States, 485
F.3d 140 (D.C. Circuit, May 8, 2007). (“Schulz 2”).
(Dkt. No. 136, attachment #1, affidavit in support
of motion to quash subpoenas, para. 23).

App. 226
34. In 2005, the 2nd circuit held in Schulz 1 that in
the interest of his due process Rights, Schulz (and
WTP) did not have to respond to Defendant IRS’s
administrative summonses issued in 2003. Schulz
v IRS, 395 F.3d 297 (January 25, 2005) and 413
F.3d 297 (June 29, 2005).
35. On December 7,2005, IRS Agent David Gordon be­
came the Agent in charge of the 6700 investigation
of Schulz. Exhibit F annexed to the Schulz Affida­
vit of even date.
36. In response to its defeat in Schulz 1 and the filing
of Schulz 2, the IRS initiated a ten-part enforce­
ment strategy against Schulz and WTP, resulting
in a year-long, comprehensive audit of WTP in
2006, an all but unnoticed provision inserted in a
voluminous, very popular act passed by Congress
in late December 2006, a Treasury Notice and ad­
ditional actions between Schulz, WTP and the
United States as follows:
I.

In 2005, the IRS summoned PayPal in Ne­
braska and California to produce its records
related to Schulz and WTP; in separate ac­
tions, Schulz moved the District and Circuit
Courts in Nebraska and California to quash
the PayPal summonses; these cases were
dismissed and the IRS obtained all PayPal
records relating to Schulz and WTP. Schulz v
IRS (California, 9th Circuit, 230 Fed. Appx.
709) (“Schulz 3”) and Schulz v IRS (Ne­
braska, 8th Circuit, 240 Fed. Appx. 167)
(“Schulz 4”).

II.

In 2006, the IRS summoned Schulz’s per­
sonal bank in Glens Falls, New York to

App. 227
produce its records of Schulz’s deposits and
withdrawals; Schulz sued to quash the bank
summons oh the grounds of retaliation, har­
assment and privacy; the IRS agent who sent
the summons to the bank (Elsie Addington
I.D. Number 33-08360) told the court the IRS
had evidence PayPal had transferred money
to Schulz’s personal account at the bank;
however, given IRS’s concurrent audit of the
books and records of WTP which showed no
money had passed from WTP to Schulz (ex­
cept compensation for out of pocket ex­
penses), and given IRS’s access to WTP’s
PayPal records which showed no money had
ever been transferred from PayPal to
Schulz’s bank, Agent Addington’s version of
the facts was clearly distorted; Schulz ob­
tained an order restraining the bank from
complying with the IRS’s summons. Schulz
1, IRS, 205 U.S. Dist LEXIS 40161. (“Schulz
5”).

III. In February of 2006, IRS’s Tax Exempt Or­
ganizations Division under the leadership of
Lois Lerner initiated an audit of the books
and records of WTP for the year 2003; the au­
dit was held at the offices of WTP’s account­
ing firm in Albany New York; throughout
2006, Defendant IRS’s Agent Michael Sciame
audited the books and records of WTP; by
mid-November, however, Sciame found the fi­
nancial and organizational records ofWTPto
be detailed and professional and that_Schulz
derived no income from WTP. much less from
the distribution of the Blue Folder. (Dkt. No.
136, attachment #1, affidavit in support of

App. 228
motion to quash subpoenas, para. 25-III, Ex­
hibit F annexed thereto, “Sciame’s Individual
Document Request Forms.” and Exhibit G
annexed thereto, “Affidavit by WTP’s Ac­
countant Judith Dievendorf’).2
IV.

In December of 2006, Defendant United
States had a provision added to a statute
that was on its way to near unanimous ap­
proval in Congress; the provision authorized
the Treasury Secretary to prescribe a list of
“specified frivolous positions” and to fine
anyone $5,000 who uses a specified frivolous
position in any proceeding involving the IRS;
in March of 2007, the Treasury Secretary
followed through by publishing a list of
“specified frivolous positions” that included
“The Right to Petition the Government for a
Redress of Grievances.”. (Dkt. No. 136, at­
tachment #1, affidavit in support of motion
to quash subpoenas, para. 25-IV, and Exhibit
L annexed thereto, “Tax Relief and Health
Care Reform Act of 2006, Division A, Part IV,
Section 407”, and Exhibit M annexed
thereto, “Treasury Notice 2007-30. page 6”).

V.

In April of 2007. the United States sued
Schulz and WTP pursuant to IRC 7804 and
6700 to permanently enjoin “the activity” i.e., the distribution of WTP’s Tax Withhold­
ing Petition for Redress of Grievances (the

2 On July 10, 2017, retired Agent Michael Sciame confirmed
his findings and the accuracy of Dievendorf’s Affidavit in a very
positive way. See Exhibit G annexed to Schulz’s Affidavit of even
date.

App. 229
"Blue Folder”). United States v Schulz, et al.,
529 F. Supp. 2d 341(N.D.N.Y. 2007) aff’d 517
F.3d 606, (2d Cir. 2008) enforcement granted,
No. l:07-cv-352,2008 WL 2626567, 2008 U.S.
Dist. LEXIS 57948 (N.D. N.Y. Apr. 28, 2008)
(“Schutz 6”); because of the results of Sciamp.’s audit of WTP in 2006 and IRS’s review
of its PayPal’s records that proved Schulz de­
rived zero income from WTP and the activity,
the Court did not impose a financial penalty
against Schulz or WTP pursuant to the pen­
alty statute. 26 USC 6700(a)(1)3: the lawsuit
was filed one week after WTP sponsored a
demonstration on March 30, 2007 in front of
the White House to protest the overall re­
fusal of the United States to respond to
WTP’s five First Amendment Petitions for
Redress of Grievances; the demonstration
also followed the publication of numerous
full page messages by WTP in some of Amer­
ica’s most popular newspapers (N.Y. Times,
USA TODAY, Washington Times, etc.) pro­
testing the refusal of the United States to
answer the questions presented in WTP’s Pe­
titions for Redress of Grievances. (Dkt. No.
136, attachment M., affidavit in support of
motion to quash subpoenas, para. 25-V and
3 Judge McAvoy noted, [a]Ithough there are some questions
of fact concerning whether Defendants sold their materials.” the
United States did not have to make such a showing to obtain an
injunction, because Defendants “clearly ‘organized’ the materials
for presentation.” Id at 348. Judge McAvoy ordered Schulz and
WTP to turn over to Dal the identities of all those provided a copy
of the Blue Folder; Judge McAvoy decisions and orders never re­
ferred to those recipients as “customers.” Id.

App. 230
Exhibit U annexed thereto, “Agitating For
The First Amendment” Washington Post,
March 31, 2007, and Exhibit V annexed
thereto, “IRS & Department of Justice: Why
Won’t You Answer Our Questions,” New York
Times, February 10,2002).
VI.

On May 8, 2007, seven months after oral ar­
gument at the D.C. Circuit in Schulz 2, and
after said “specified frivolous positions” ac­
tivity by Congress (Division A, Part IV, Sec­
tion 407 of the Tax Relief and Health Care
Reform Act of 2006) and the Treasury De­
partment (Treasury Notice 2007-30), the
United States Court of Appeals for the D.C.
Circuit issued its decision in Schulz 2; rely­
ing on two irrelevant cases involving public
employees with on-the-job, employmentrelated grievances, rather than citizens with
constitution-related grievances, the Court
declared that the United States did not have
to listen or respond to WTP’s First Amend­
ment Petitions for Redress of Grievances re­
garding violations of the Constitution by the
Government, and as that was the case, the
People did not have the Right to impose eco­
nomic sanctions on the United States by re­
taining their money until their grievances
were redressed. (We The People v. United
States, 485 F.3d 140) (Schulz 2)

VII. On May 15, 2007, the IRS asked Schulz to
agree in writing, by signing two copies of
Form 872, to extend Sciame’s audit that got
underway in February of 2006 to December
31, 2008 - that is, for an additional sixteen

App. 231
months beyond the 36 month statute of limi­
tations; on July 3,2007, IRS’s auditor Sciame
followed up his 5/15/07 letters by verbally
telling Schulz it would not go well for him if
he did not sign the 872s; completely unaware
of what turned out to be an inextricably in­
tertwined strategy connection between IRS’s
request for the 16 month extension in the au­
dit of WTP, the Tax Relief and Health Care
Reform Act of 2006, Treasury Notice 200730, the decision in Schulz 2 and the case
that had just gotten underway to enjoin the
further distribution of the Blue Folder
{Schulz 6), Schulz agreed to extend the au­
dit period, but on the condition that he
receive, before the expiration of the 36
month statute of limitations (i.e., by Au­
gust 15, 2007), a copy of each Form 872,
cosigned by the IRS, as official notifica­
tion that the period of examination had
been legally and properly extended be­
yond August 15, 2007, so as to be ready
and prepared to act on whatever the re­
sults of the examination; as affirmed by
the IRS in 2009 (IRS Agent Conley in his
Case Activity Report), in violation of the
agreement, neither Mr. Sciame nor anyone
else in the IRS had ever returned a cosigned
copy of either Form 872 to Schulz, to alert
Schulz that the examination was on-going,
giving rise to the question of whether the ex­
amination ended on August 15,2007 without
a final report by IRS. (Dkt. No. 136, attach­
ment #1, affidavit in support of motion to
quash subpoenas, para. 25-VII, including

f

App. 232
footnote, and Exhibit H annexed thereto,
“May 15, 2007 letters”, and Exhibit I an­
nexed thereto, “affidavit by WTP Accountant
Judith Dievendorf”, and Exhibit J annexed
thereto, “Agent Conley’s Case Activity Re­
port,” and Exhibit K annexed thereto, “copies
of the 872s sent to Schulz by Conley on Au­
gust 26, 2010, signed by Lois Lemer alleg­
edly on Jul) 10,2007.”
VIII. On June 18, 2007, Defendant United States
moved for summary judgment supported by
its Statement of 21 Material Facts. (Schulz
6, Dkt 14); on July 16, 2007, supported by
extensive documentary evidence provided
under penalty of perjury, Schulz denied each
of the Defendant United States’ 21 material
facts, and added 40 additional material facts
in support of his motion to dismiss and in op­
position to the United States’ summary judg­
ment motion (Schulz 6, Dkts 21, 22, 23, 24);
on July 20, 2007, Defendant United States
responded to Schulz’s additional statement
of material facts (Schulz 6, Dkt 26), bringing
the number of material facts in genuine dis­
pute to 62; however, on August 9, 2007,
without an evidentiary hearing or discovery,
the Court granted the United States’ motion
for summary judgment against pro se Schulz
and WTP, directing Schulz and WTP to cease
the distribution of the Blue Folder and to
provide the United States with the names
of those to whom WTP mailed a copy of the
Blue Folder, never referring to them as cus­
tomers”; under duress, Schulz provided the
United States with the name and address of

App. 233
the 225 people who were mailed a copy of
the Blue Folder; United States v. Schulz, et
al., (529 F. Supp. 2d 341, August 9, 2007,
N.D.N.Y., Case No. 07-cv-352). By October,
2008, Schulz 6 had been affirmed by the
Court of Appeals (517 F.3d 606 (2d Cir. 2008)
and Certiorari had been denied. (Dkt. No.
136, attachment #1, affidavit in support of
motion to quash subpoenas, para. 25-VTII).
EX.

On December 29, 2008, IRS completed its
“872 extended” audit/examination of WTP
for 2003; based entirely on the results of
Schulz 6, Agent Sciame revoked the taxexempt status of WTP retroactive to 2003
and penalized WTP by applying the maxi­
mum corporate tax rate of 34% to WTP’s to­
tal gross revenue for 2003 while ignoring
WTP’s expenses for 2003.4 (Dkt. No. 136, at­
tachment 1, affidavit in support of motion to
quash subpoenas, para. 25-IX, and Exhibit Q
annexed thereto, “Notice of Deficiency and
Explanation for WTPF and WTPC”, and Ex­
hibit R annexed thereto, the 990 tax return
for 2003 for WTPF”, and Exhibit S annexed
thereto, “the 990 tax return for WTPC”).

4 On July 10, 2017, during his deposition, Sciame admitted
his revocation of WTFs tax exempt status was not based on
WTP’s financial and organizational records, which he
found to be detailed, accurate and professional, with no
evidence of inurement to Schulz or anyone else but, instead,
was based on IRS’s perception that WTP’s activities were “political and legislative” not “constitutional.” See Sciame deposition
transcript, Exhibit G annexed to Schulz affidavit of even date.

App. 234
X.

In sum, on December 29, 2008 (notwith­
standing the fact that the IRS had violated
WTP’s conditional agreement to the 16month extension of the period of time for the
completion of its audit by not returning a co­
signed copy of the Form 872, auditor Michael
Sciame declared he had completed the audit
of WTPF and WTPC that he began two and
one-half years earlier in February of 2006,
and that on the based solely on the
courts’ decision in Schulz 6 he had re­
voked the tax exempt status of WTP, retro­
active to 2003 and imposed a penalty
retroactive to 2003, with interest, based on
WTP’s gross revenue in 2003, with no recog­
nition of WTP’s expenses in 2003; notwith­
standing the fact that IRS’s appeals unit
(Agent Thomas Conley) was aware that IRS
failed to send Schulz and WTP any notice
that it had extended the period of examina­
tion by co-signing the Form 872 as mandated
by the IRS’s Internal Revenue Manuel, and
that WTP had not received the IRS’s Notice
of Deficiency because WTP’s office was closed
on December 24,2008 for an extended period
of time while Schulz and his wife spent the
holidays with their son in Texas and pro­
ceeded from there on an extended speaking
tour to 88 cities in 50 states, the Appeals
Unit simply determined WTP failed to timely
appeal from the Notice of Deficiency and that
WTP had to pay the penalty with interest;
the Tax Court affirmed Conley’s decision
saying WTP was in “constructive receipt” of
the Notice of Deficiency; WTP appealed to

App. 235
the 2d Circuit; Schulz, who could legally rep­
resent WTP before the Appeals Unit (Conley)
and in Tax Court and assumed he could,
therefore, represent WTP on appeal from the
Tax Court decision, was prevented from rep­
resenting WTP at the 2d Circuit whose rules
prohibited corporations from being repre­
sented by non-attorneys; the 2d Circuit dis­
missed the appeal because the Notice of
Appeal from the Tax Court’s determination
was not signed by an attorney. See Schulz u
IRS (Tax Court) (Schulz 7). (Dkt. No. 136,
attachment #1, affidavit in support of motion
to quash subpoenas, para. 25-IX)
37. On November 24, 2014, IRS Revenue Agent David
Gordon sent Schulz a letter under the subject, “No­
tification of Determination” saying:
“I have determined that the penalty un­
der Internal Revenue Code Section 6700 is ap­
plicable based on the permanent injunction
entered against you by the federal court on
August 9, 2007. The enclosed documents ex­
plain the reasons for that determination and
the computation of the penalty amount(s) to­
taling $225,000 ($1,000 x225) for year 2003.
You will receive a separate notice when the
amount(s) are assessed.”
(Dkt. No. 136, attachment #1, affidavit in support of
motion to quash subpoenas, para. 26 and Exhibit D
annexed thereto)
38. There was no computation worksheet attached to
Gordon’s letter; instead, Gordon attached a copy of

App. 236
said August 9,2007 decision and order (Schulz 6),
and a copy of a Declaration filed by Schulz in that
case that listed 225 people to whom WTP mailed
the Blue Folder. (Dkt. No. 136, attachment #1, af­
fidavit in support of motion to quash subpoenas,
para. 27 and Exhibit D annexed thereto)
39. On December 16, 2014, Schulz and his attorney
Samuel Lambert spoke by phone with Gordon;
Lambert explained to Gordon that IRC Section
6700 discusses the computation of a penalty say­
ing that the penalty is zero if the income derived
from the activity is zero and accordingly, the pen­
alty against Schulz should be zero because the
gross income earned by Schulz from the prohibited
activity was zero; Gordon said he had closed out
the case and Schulz could challenge the upcoming
assessment; Lambert told Gordon he wanted to
speak to Gordon’s manager. (DU. No. 136, attach­
ment #1, affidavit in support of motion to quash
subpoenas, para. 28) (See also Exhibit H. tran­
script of 12/16/14 phone conversation between
Schulz. Lambert and Gordon, annexed to Schulz’s
Affidavit of even date.)
40. On December 19, 2014, Schulz and his attorney,
Samuel Lambert spoke by phone with Gordon and
Christopher Delacazada, Gordon’s acting group
manager; attorney Lambert said being in violation
of 6700 or 6701 does not determine the amount of
the penalty, the penalty is zero if the gross income
derived from the activity is zero; Gordon said the
case is closed and had been sent to another state
for the assessment; Lambert asked Gordon and
his Supervisor to keep an open mind and to re­
trieve the file from the assessment unit because

App. 237
according to IRC 6700, Schulz is not liable for any
penalty because he earned no income from the ac­
tivity and it was wrong to put Schulz through an
appeal/assessment process; Gordon’s manager
said he would try to retrieve the file. (Dkt. No.
136, attachment #1. affidavit in support of motion
to gnash subpoenas, para. 29 and Exhibit !. Affida­
vit of Samuel Lambert, annexed to Schulz’s Affida­
vit of even date).
41. On March 5, 2015, Schulz received from IRS’s as­
sessment unit a CP15, Notice of Penalty Charge,
dated March 9, 2015, “for promoting an abusive
tax shelter,” assessing Schulz $225,000. (Dkt. No.
136, attachment #1, affidavit in support of motion
to quash subpoenas, para. 30 and Exhibit E an­
nexed thereto).
42. On April 3, 2015, Schulz mailed $1,000 to the IRS
with a notice that a claim for refund was being
filed with the IRS in Andover, Mass. (Dkt. No. 136,
attachment 1, affidavit in support of motion to
quash subpoenas, para. 31).
43. On April 6,2015, Schulz’s attorney, Samuel Lambert
timely filed an administrative appeal (Dkt # 1) en­
closing:
•
•
•
•
•

a completed Form 6118 (Claim for Re­
fund),
an attachment to Form 6118,
a Form 2848 (Power of Attorney),
a copy of the IRS Notice CP15, and
an Affidavit of Robert L. Schulz with ac­
companying exhibits.

App. 238
44. The IRS did not respond to Schulz’s admin­
istrative appeal papers; Schulz re-filed the ad­
ministrative appeal (Dkt # 1); again, the IRS did
not respond. (Dkt. No. 136, attachment 1, affida­
vit in support of motion to quash subpoenas, para.
33).
45. On November 2, 2015, in light of the statutory re­
quirements of IRC Section 6703(c)(2) - that is,
that if the IRS did not resolve Schulz’s Form 6118
appeal in six months, Schulz had 30 days to file a
case in District Court for a determination of his
liability under 6700, or lose his protection against
IRS’s collection of the penalty, Schulz filed his
original Complaint in this matter, which Com­
plaint included extensive documentation ev­
idencing the fact that he derived zero gross
income from WTP much less from the activity.(Dkt #1).
46. On November 24, 2015, a Notice of Federal Tax
Lien against Schulz was prepared and signed in
Manhattan, NY by Cheryl Cordero for HOLLY
NICHOLSON, and filed in the Warren County
Clerk’s Office, covering the 6700 tax assessed of
March 9, 2015 in the amount of $224,000.® (Dkt.
No. 136, attachment 1, affidavit in support of mo­
tion to quash subpoenas, para. 35).
5 The record shows the only source of income for Schulz and
his wife, both 78 years of age, has been from social security pay­
ments and from the occasional sale of parcels of their homestead.
Schulz would be neglectful and irresponsible if he did not report
here that as the lien has prevented the sale of any additional par­
cels of their land for more than two years, Schulz and his wife
have been subjected to severe hardship and stress.

App. 239
47. On May 16, 2017, during the discovery period,
Schulz provided Defendant’s attorney Michael
Pahl with conclusive evidence that rather than
deriving any income from WTP, much less from the
Blue Folder activity in question, there were
$110, 231 in WTP-related expenses paid for
by Schulz between 2000 and 2008 for which
Schulz has not been reimbursed. (Dkt. No.
102).
48. Defendant did not respond much less refute
Schulz’s May 16, 2017 conclusive evidence.
(Dkt. No. 136, attachment #1, affidavit in support
of motion to quash subpoenas, para. 37).
49. However, in the wake of his receipt of Schulz’s
conclusive evidence (confirmed as it was in the
reams of other documents produced during the
course of discovery in this case by Schulz and
WTP’s accountant, Judith Dievendorf), Mr. Pahl
suddenly chose to pursue an “alter ego” theory.
(Dkt. No. 136, attachment #1, affidavit in support
of motion to quash subpoenas, para. 38).
50. On June 19, 2017, two months after being pro­
vided with said conclusive evidence, Mr. Pahl
declared during a telephone conference call sched­
uled by Judge Hummel on June 19, 2017 that he
(Pahl) believes that if the Government can prove
Schulz was WTP’s alter ego, all of WTP’s income
can be imputed to Schulz. (Dkt. No. 136, attach­
ment 1, affidavit in support of motion to quash
subpoenas, para. 39).
51. On July 7, 2017, Schulz filed a Motion to Compel
Discovery; a complete copy of Schulz’s May 16,
2017 conclusive evidence that he earned zero

App. 240
income from WTP and the activity was in­
cluded as EXHIBIT L annexed to Schulz’s Affida­
vit of July 7, 2017 which was filed in support of a
Motion to Compel Discovery. (Dkt # 126).
52. During Schulz’s July 10,2017 deposition of Michael
Sciame, the IRS Revenue Agent who conducted
the audit in 2006 of WTP’s books and records for
the year ended December 31. 2003, Sciame
clearly and unequivocally stated WTP’s fi­
nancial and organizational records for 2003
were detailed and professional, that Schulz
did not derive any income from WTP and
there was no inurement. (Exhibit G annexed to
Schulz Affidavit of even date, Deposition Tran­
script of Michael Sciame.).
53. In addition, during his deposition, Sciame con­
firmed the accuracy of the Affidavit of WTP’s
Accountant, Judith Dievendorf. Exhibit G an­
nexed to Schulz affidavit of even date, deposition
transcript of Michael Sciame).
54. During his July 14, 2017 deposition, Agent David
Gordon made no attempt to answer almost all of
Schulz’s questions, including but not limited to:
1.

Whether Gordon’s Supervisor had approved
Gordon’s November 24,2014 penalty determi­
nation of the $225,000, in writing, as re­
quired by IRC section 6751,6 and

6 Gordon would only say that Hans Famularo had approved
the penalty assessment. Hans Famularo was a local IRS Counsel
working out of Laguna Niguel. Section 6751 required the ap­
proval of Gordon’s supervisor, not IRS counsel. Exhibit J. Gordon
deposition transcript.

App. 241
2.

Whether Gordon had computed Schulz’s gross
income for 2003, as required by IRC sec­
tion 6700(a)(1) and IRC section 675h

3.

Why Gordon multiplied $1,000 times the 225
when IRC 6700 sets the penalty at $1,000 or
100 percent of the gross income derived by
Schulz from the activity.

(Exhibit J annexed to Schulz affidavit of even date,
7/14/17 deposition transcript of David Gordon).
No (“Alter Ego”! Income Was Imputed To Schulz
55. WTP was not Schulz’s alter ego - for instance
there have never been any WTP “shareholders”
much less loans from shareholders to WTP, nor
any tax return reporting same that was signed by
an officer of WTP.
56. WTP was not Schulz’s alter ego - for instance, the
percentage of WTPF’s Financial Support that
came from the public averaged 99.9% for the years
2000 through 2003. Exhibit K, “WTPF’s Tax Re­
turn for 2004, Schedule A, page 3, line 27 g,” an­
nexed to Schulz Affidavit of even date.
57. On November 21, 2017, Schulz filed a Reply (Dkt
#173) to Defendant’s 11-page, Supplemental Re­
sponse to Schulz’s Second Set of Interrogatories,
dated October 6, 2017. In effect, Defendant’s Sup­
plemental Response detailed Defendant’s alter ego
claims. Schulz’s 11/21/17 reply (Dkt #173) refuted
each of those claims. Exhibit A annexed to Schulz’s
11/21/17 reply letter is a clean copy of Defendant’s
11-page Supplemental Response. Exhibit B

App. 242
annexed to Schulz’s 11/21/17 reply letter includes
each of Schulz’s rebuttals, embedded in Defen­
dant’s 11-page Supplemental Response. Ex­
hibit L annexed to Schulz’s Affidavit of even date
is a complete copy of Schulz’s 11/21/17 reply (Dkt
#173).
58. On November 22, 2017, and again on November
24, 2017 and again on December 19, 2017, Schulz
attempted by email to get Mr. Pahl to answer two
questions about his alter ego claims: 1) if there
were any other alter ego claims other than those
identified in Defendant’s 10/6/17 Supplemental
Response to the Court’s 10/2/17 Order; and 2) if
Schulz’s 11/21/17 reply has effectively refuted and
therefore eliminated each of the alter ego claims
already identified by Defendant. Mr. Pahl did not
respond, responsively. Exhibit M is a copy of the
11/22/17-12/19/17 email exchange between Schulz
and Pahl.
No Income Was Derived Bv Schulz Directly
From WTP Or From The Activity
59. On April 18, 2017, Plaintiff served a discovery de­
mand that included interrogatory number 1 that
read, “Set forth how much gross income was
earned by Schulz personally each year from 2003
through 2016 directly from the distribution of the
Tax Withholding Petition for Redress (the “Blue
Folder”).” (Dkt #175, transcript of 11/21/17 court
conference, page 25, lines 21-25).
60. On November 21, 2017, in response to said inter­
rogatory number 1, Defendant admitted they had
seen no evidence of direct payments to Plaintiff

App. 243
Schulz that would be considered income. (Dkt
#175, transcript of 11/21/17 court conference, page
28, line 10 through page 30, line 16).
61. In United States v Schulz, et al., 529 F. Supp. 2d
34KN.D.N.Y. 2007) aff’d 517 F.3d 606, (2d Cir.
2008) enforcement granted, No. l:07-cv-352, 2008
WL 2626567, 2008 U.S. Dist. LEXIS 57948 (N.D.
N.Y. Apr. 28, 2008) (“Schulz 6”); Judge McAvoy
referred to the lack of evidence showing the Blue
Folder was sold. Judge McAvoy noted, “ [a] 1 though
there are some questions of fact concerning
whether Defendants sold their materials,” the
United States did not have to make such a show­
ing to obtain an injunction, because Defendants
“clearly ‘organized’ the materials for presenta­
tion,” Id at 348. Judge McAvoy ordered Schulz and
WTP to turn over to DO J the identities of all those
provided a copy of the Blue Folder; Judge McAvoy
decisions and orders never referred to those recip­
ients as “customers.” Id.
62. Defendant has admitted that, “in assessing the
penalty against Schulz, the only document the IRS
used to compute the amount of the penalty was the
list of the 225 individuals to whom the [Blue
Folder] was sent in 2003.” (Dkt # 186, Defendants’
letter, page 2, paragraph 4); in effect, therefore,
Defendant has admitted the IRS made no ef­
fort to determine if any copies of the Blue
Folder were sold and what gross income was
derived from the sale(s) and that IRS arrived
at a penalty amount by simply multiplying $1,000
by the number of copies of the Blue Folder (225)
that were freely provided to the public. (Dkt # 186.
Defendants’ letter, page 2, paragraph 4).

App. 244
63. Again, for emphasis, on July 7,2017, Schulz’s filed
a motion to compel discovery, supported by a Mem­
orandum of Law and an Affidavit by Schulz (Dkt
126). The motion to compel discovery consisted of
a request for the production of documents and two
interrogatories. Annexed to the Affidavit was Bx;
hibit L. Included in Exhibit L was a copy of a letter
from Schulz to Defendant dated 5/16/17. Annexed
to the letter were copies of DOCUMENTS 41
through 48 consisting of conclusive documen­
tary evidence that proves that for the period
2000-2008, Schulz derived zero income from WTP,
including the activity in question (organization and
distribution of the Blue Folder) and that for the pe­
riod 2000 through 2008, Schulz’s expense vouchers
show he had not been reimbursed for $110,231 in
WTP-related expenses he personally paid for.
64. David Gordon, the Agent in charge of the 6700
penalty investigation of Schulz did not prepare a
penalty computation and he did not obtain the
written approval of his penalty determination
by his supervisor or higher official designated by
the Treasury Secretary before issuing his penalty
letter to Schulz on November 24, 2014. (Dkt #146.
Schulz Affidavit, partial transcript, page 25,45-58
of the 7/14/17 deposition of Agent Gordon)
Agent Gordon’s. Fraudulent Execution
of Penalty Against Schulz
65. IRS Agent David Gordon’s 6700 penalty investiga­
tion of Schulz and WTP in 2006 paralleled IRS
Agent Michael Sciame’s audit of WTP in 2006. Ex;
hibit J annexed to Schulz affidavit of even date.

App. 245
66. IRS Agent David Gordon interacted frequently with
an IRS auditor Michael Sciame in 2006 sharing in­
formation about their respective investigations/
examinations. Exhibit .1 annexed to Schulz affida­
vit of even date.
67. In 2006, Agent Gordon was aware of the fact that
by November of 2006, after spending nine months
at the offices of WTP’s accountant, Sciame had
found WTP’s financial and organizational rec­
ords to be complete, accurate and professional and
that there was no “inurement” to Schulz or anyone
else. Exhibit J annexed to Schulz affidavit of even
date.
68. In 2007. Agent Gordon was aware of the fact that
in the Blue Folder case:: a) Judge McAvoy did note
there was a lack of evidence proving “the activity”
consisted of the “organization, promotion and
selling” of the Blue Folder - that is, that the Blue
Folders were actually sold: and b) judge McAvoy
did not refer to the people to whom WTP gave the
Folders as “customers.” (Dkt. No. 136, Attachment
#1, affidavit in support of motion to quash sub­
poenas, Exhibit D annexed thereto, including
Gordon’s 11/24/14 letter with its attachment Judge McAvoy’s letter).
69. David Gordon made no attempt to determine if
copies of the Blue Folder were sold in 2003 or later.
(Dkt # 186, Defendants’ letter, page 2, paragraph
4).
70. David Gordon has made no attempt to compute
Schulz’s income, directly or imputed, that may
have been derived from any sales of the Blue

App. 246
Folder. (Dkt # 186, Defendants’ letter, page 2, par­
agraph 4).
71. David Gordon has made no attempt to compute a
percentage of Schulz’s gross income derived in
2003 or later from the distribution of the Blue
Folder. (Dkt # 186, Defendants’ letter, page 2, par­
agraph 4).
72. David Gordon made no attempt to determine if
WTP was Schulz’s alter ego. (Dkt # 186, Defen­
dants’ letter, page 2, paragraph 4).,
73. David Gordon has never provided Schulz with a
separate detailed penalty calculation worksheet
as called for in LRC Section 6751. (Dkt # 186, De­
fendants’ letter, page 2, paragraph 4).
74. David Gordon never attempted to meet and confer
with Schulz before assessing the penalty. (Dkt
# 186, Defendants’ letter, page 2, paragraph 4).
75. David Gordon obtained an undergraduate degree
in psychology. Exhibit J annexed to Schulz’s affi­
davit of even date, Gordon’s 7/14/17 deposition
transcript.
76. David Gordon authored a psychological
analysis of anti-government tax protestors
“a few years ago.” Exhibit N annexed to Schulz
Affidavit of even date, Gordon 7/14/17 deposition
transcript).
77. Wikipedia has a page on Schulz and a separate
page on WTP, both controlled by a person(s) with
the code name “Famspcar” and both filled with
misrepresentations and inaccuracies that give
an overall biased and prejudicial account of the

App. 247
nature and work of Schulz and WTP, prejudicial to
Schulz and WTP. Exhibit 0 annexed to Schulz Af­
fidavit of even date, selected pages from Wikipe­
dia.
78. Famspcar’s bio, with a table of contents, appears
“behind” the page on Schulz and again “behind”
the page on WTP. Exhibit 0 annexed to Schulz Af­
fidavit of even date, pages 1-5.
79. Famspear’s bio includes a psychological
analysis of anti-government tax protestors,
written “a few years ago.” Exhibit O annexed
to Schulz Affidavit of even date, page 4-5.
80. Famspear is David Gordon alone or in combina­
tion with Hans Famularo, the IRS Counsel who
approved Gordon’s 11/24/14 penalty assessment
against Schulz and who operates out of IRS’s office
in Laguna Niguel. Exhibit__ annexed to Schulz
affidavit of even date
81. Famspear has removed all attempts by Schulz
(“Freedomstriumph”) to edit, the Famspear con­
trolled pages on Schulz and WTP in order to make
them more accurate and less prejudicial and de­
famatory. Exhibit O annexed to Schulz Affidavit of
even date, page 13-36.
82. David Gordon did not obtain the written approval
of his penalty determination by his supervisor or
higher official designated by the Treasury Secre­
tary before issuing his penalty letter to Schulz on
November 24, 2014. (Dkt 4146, and Schulz Affida­
vit, partial transcript, page 25.45-58 of the 7/14/17
deposition of Agent Gordon).

App. 248
83. On November 21, 2017, the Court directed, “that
within ten days of today’s date, today being the
21st day of November, that by December 1st, the
government provide any additional documents in
their possession which have not been provided to
Mr. Schulz which were used in determining the
penalty which was - has been assessed to him in
this matter. To the extent there are no additional
documents, an affirmative representation of that
fact is to be provided by someone by the Internal
Revenue Service.” (Dkt # 175, Attachment #1,
transcript of proceeding of November 21, 2017,
page 55, line 16 to page 56, line 1).
84. Plaintiff filed a copy of the documents that he re­
ceived from Defendant in response to the Court’s
November 21, 2017 Order. (Dkt # 190, 252 pages
Bates numbered PENPROD 000001 through
PENPROD 000252).
85. In seeking IRS approval of his penalty assess­
ment, Gordon added fictitious details to the
McAvoy Court’s final Decision and Order, saying
for instance that the penalty assessment against
Schulz was for “organizing, promoting and selling”
the material that was the object of the McAvoy
Court’s Decision and Order (the “Blue Folder”),
and that Schulz was ordered to turn over his “cus­
tomer list” by May 5, 2008 that pertains to the in­
junction granted by the Federal Court, and that
said “customer list” included the names and ad­
dresses of 225 individuals to whom the material
was sold. (Dkt # 190, 252 pages Bates numbered
PENPROD 000001 through PENPROD 000252, at
PENPROD-000084.

App. 249
86. Gordon excluded from his all-important “Penalty
Case File Closing Documents” Judge McAvoy’s
acknowledgement that,” there are some questions
of fact concerning whether Defendants sold their
materials.” (Dkt # 190,252 pages Bates numbered
PENPROD 000001 through PENPROD 000252) at
PENPROD- 000150-179, copy of Gordon’s 11/24/14
email to “LDC” transmitting his case closing docu­
ments. In attaching “Judge McAvoy’s Decision and
Order” (PENPROD - 000154-157, Gordon chose
not to include Judge McAvoy’s acknowledgement
that contradicted his fictitious assertion that the
material was sold. In the email, Gordon says he
did not include the full Decision and Order “due to
the number of pages that would have to be
emailed.”
87. Gordon included in his “Penalty Case File Closing
Documents” a falsified Form 8278, Assessment
and Abatement of Miscellaneous Civil Penalties”
signed by Gordon on 11/18/14. (Dkt # 190,252 pages
Bates numbered PENPROD 000001 through
PENPROD 000252) at PENPROD-000175; the
Form 8278 did not include a separate “detailed cal­
culation sheet as required by IRC 6751; the Form,
indicates Gordon, not his manager, entered the
electronic signature of the manager on 11/18/14,
notwithstanding the requirement of IRC 6751
that the manager has to sign the Form and that
the manager’s signature has to be “in writing”; in
addition, the Form 8278 states plainly that the
penalty of $225,000 was based on the returns of
Sally-Ann Monk, October Pawlick and Gerald Post
even though there were no returns on which the
penalty was based; Gordon simply sent to IRS’s
“Nancy Kunard” the list of 225 individuals who

App. 250
were provided with a copy of the Blue Folder and
asked Kunard to “pull 3 of them and obtain the
current SSNs.” (Dkt # 190. 252 pages Bates num­
bered PENPROD 000001 through PENPROD
000252) at PENPROD-000081. See also PENPROD-000176-179.
88. Defendant disclosed said Form 8278 to Schulz on
or about 11/11/17, after the discovery period had
closed; on 11/14/17, Schulz notified Defendant and
the Court of the Form’s apparent fraudulent na­
ture [Dkt 170]; during a court conference on
11/21/17, Schulz called out Form 8278 as a fraud
because: 1) rather than a written approval by his
manager as required by IRC 6751, it appeared
Agent Gordon had applied the digital signature of
his acting manager; and 2) it falsely stated the
penalty was assessed based on the tax returns of
three individuals; and 3) there was no separate
“detailed computation sheet” as required by IRC
6751.
89. In response and in an apparent attempt to coverup the fraud, Gordon prepared a new Form 8278
that only added to the fraud. (Dkt # 190,252 pages
Bates numbered PENPROD 000001 through
PENPROD 000252) at PENPROD-000180; the
new Form 8278 is a severely altered version of the
original; adding to the fraud, this “cover up” ver­
sion of Form 8278: 1) changes the date the Form
8278 was allegedly “signed” from 11/18/14 to
11/18/04, which is more than one year before
Agent Gordon became involved in the 6700 inves­
tigation of Schulz and nearly three years before
Judge McAvoy issued his injunction against the
further distribution of the Blue Folder; 2) changes

App. 251
the number of tax returns on which the penalty
was based from three to zero; 3) changes the tax
year in question from the year ending December
31, 2003 to the year ending December 31, 2004,
even though the Form is signed six weeks before
the end of the 2004 tax year; and 4) does not iden­
tify the name the Manager who allegedly signed
the Form and whose alleged signature is indeci­
pherable.
90. Gordon’s CASE FILE regarding his penalty inves­
tigation of Schulz shows Gordon did not comply
with IRS’s CASE PROCESSING PROCEDURES.
(Dkt # 190,252 pages Bates numbered PENPROD
000001 through PENPROD 000252) at PENPROD000005; the FILE and the record of this case is de­
void of any indication for instance: a) that Gordon
computed a penalty based in whole or in part on
Schulz’s income derived from the activity, if any b)
that Gordon made any attempt to schedule a clos­
ing conference with Schulz; c) that Gordon pre­
pared an RAR and case for his Area Counsel
Approval; or d) that Gordon prepared a memoran­
dum from his Area Director for Approval of the
Penalty.
91. As another example of Gordon’s illegal execution
of the penalty, the Court’s attention is respectfully
invited to IRS’s Promoter Penalty Case Closing
Job Aid, Completed Investigation with an Injunction
and/or penalties. Exhibit P annexed to Schulz’s
Affidavit of even date, items 1-21; there is no evi­
dence in Gordon’s Case File or in the record of this
case: a) that in accordance with item 4, Gordon
obtained the “concurrence from all stakeholders,
(Counsel, Cl, Analysts, Group Manager, etc.) to the

App. 252
decisions”; or b) that in accordance with item 8,
Gordon “secured the approval of the group man­
ager to assess the penalties”; or c) that in accord­
ance with item 9, Gordon provided Schulz with “an
explanation of the determination of the investiga­
tion and an explanation of the penalty assess­
ment”; or d) that in accordance with item 14,
Gordon held a "closing conference to discuss report
and penalty explanation” with Schulz; or e) that in
accordance with item 15, Gordon prepared “a cover
letter for the report and penalty explanation” us­
ing Letter 5390; or f) that in accordance with item
16, Gordon sent the “cover letter, report and pen­
alty explanation” to Schulz.
92. In yet another example of the illegal execution of
the penalty, Gordon misled attorneys in IRS’s Of­
fice of Chief Counsel Shawna Early (New York
City) and Hans Famularo (Laguna Niguel, CA);
before closing out the case with “LDC,” Gordon
was required to send Schulz a copy of his Report
and penalty explanation with IRS’s standard
cover Letter 5390. For a copy of Letter 5390, see
F.yhihit P annexed to Schulz’s Affidavit of even
date. However:
•

•

Gordon knew that if he used the Standard
Letter 5390 he would have to attach Form
886-A, Explanation of Items, and Compu­
tation of Penalty, and the Letter would
give Schulz an opportunity to submit a
written rebuttal.
Gordon knew from his interaction with
Michael Sciame during Sciame’s thor­
ough audit/examination of WTP’s 2003 fi­
nancial and organizational records (See

App. 253

•

•

•

Exhibit J,transcript of Sciame’s 7/10/17
deposition) that Sciame found WTP’s
records detailed and professional and
that there was no inurement to Schulz or
any other private party.
Gordon also knew that Judge McAvoy
found a lack of evidence that the material
subject to the injunction had been sold
and that Judge McAvoy had never said
Schulz or WTP had a “customer list.”
Schulz.
Gordon also knew that as the Agent in
charge of the 6700 investigation of Schulz
and WTP, he had made no effort since the
date of Judge McAvoy’s decision (August
9, 2007) to determine if any of the Blue
Folders had been sold.
Gordon also knew that he had made no
effort to determine if Schulz had derived
any gross income, directly or indirectly,
from the mailing of the 225 Blue Folders.

93. In other words, Gordon knew that if he used the
Standard Letter 5390, his illegal execution of the
penalty would be revealed. Therefore, he sought
IRS Counsel’s approval to send Schulz a “modified”
letter that would not have Form 886-A, Explana­
tion of Items, and Computation of Penally at­
tached and which would not offer Schulz the
opportunity to provide a written rebuttal. (Dkt
# 190, 252 pages Bates numbered PENPROD
000001 through PENPROD 000252 at PENPROD000063,64 for a copy of Gordon’s email exchange
with Shawna Early and Hans Famularo, in which
Gordon argues for the modified letter and against

App. 254
using Standard Letter 5390 on the absurd ground
that SchUlz will not cooperate,” whatever that
means. For three days, Shawna Early did not re­
spond to Gordon’s email. However, like Camus,
Hans Famularo accepted the absurd and ap­
proved Gordon’s use of the modified letter.
Alter Ego
94. Defendants have not denied that they obtained
from the organization’s professional bookkeeper
during the audit, a full accounting of all funds con­
ceivably related to the Activity, including copies of
all WTP expense and income vouchers and all
hank statements for 2003, the year in question.
Neither have Defendants denied the accuracy of .
the financial data given to them along with the
Complaint herein - an actual copy of what the IRS
received during its audit of WTP in 2006-2007.
95. In addition, the United States has already ob­
tained copies of the all relevant records from the
Financial institutions listed in the United States’
Initial Disclosures. Defendants have not denied
that as a result of the United States’ summons in
2005. the United States obtained copies of the
record of all payments ever received by PayPal, the
organizations’ online payment company, and cop­
ies of the record of each and every transfer of that
money out of PayPal, showing no money moved
from the organizations’ PayPal accounts to Schulz
or to the only bank account Schulz has had since
moving into his present home in 1969.

App. 255
Dated: January 2, 2017
/s/ Robert L. Schulz
ROBERT L. SCHULZ
2458 Ridge Road
Queensbury, NY 12804

